                        May 2, 2001

                        NICHOLAS F. BARRANCA
                        VICE PRESIDENT, OPERATIONS PLANNING
                         AND PROCESSING

                        SUBJECT: Certified Mail Observations at the Los Angeles
                                 Processing and Distribution Center
                                 (Report Number AC-MA-01-002)

                        This management advisory report presents an issue that
                        recently surfaced during a survey of certified mail (Project
                        Number 01NA010AC000). The purpose of the survey was
                        to determine if the Postal Service was meeting its delivery
                        standards for certified mail during nonpeak times. During
                        the survey we identified an issue that needs immediate
                        attention. It deals with using scanning equipment that is
                        incompatible with the Signature Capture Program.

Results in Brief        The use of old scanning equipment at the Los Angeles
                        Processing and Distribution Center may impact the
                        Signature Capture Program. The old scanning equipment is
                        not linked to the national database and may jeopardize the
                        system to electronically collect, store, and retrieve delivery
                        records. We suggested that management notify
                        appropriate individuals that using old scanning equipment
                        precludes their participation in the Signature Capture
                        Program. Management agreed with our suggestion and will
                        reinforce the proper procedures for handling signature
                        capture mail. Management’s comments are included, in
                        their entirety, in the appendix to this report.

Objective, Scope, and   Our objective was to determine whether the Postal Service
Methodology             was meeting its delivery standards for certified mail. In
                        conducting our review, we observed caller service
                        personnel in the Los Angeles Processing and Distribution
                        Center scanning certified mail with old scanning equipment.
                        We discussed this issue with the manager of the Main Post
                        Office, Los Angeles, and the manager, Information
Certified Mail Observations at the Los Angeles                                     AC-MA-01-002
 Processing and Distribution Center


                               Systems, Expedited/Packages Service at headquarters.
                               This review was conducted from December 2000 through
                               May 2001, in accordance with the President’s Council on
                               Integrity and Efficiency’s Quality Standards for Inspections.
                               We discussed our conclusions and observations with
                               appropriate management officials and included their
                               comments, where appropriate.

Background                     Certified mail is an accountable product that permits a
                               customer to obtain a record of delivery. On July 22, 2000,
                               the Postal Service implemented the Signature Capture
                               Program, which allowed the transition from manually-filed to
                               electronically-filed delivery records. This program provides
                               the customer with easier access to delivery information.

                               To implement the Signature Capture Program, new
                               equipment was purchased. Mobile data collection devices
                               (handheld scanners) and new Firm Print Workstations are
                               now being used, replacing the older systems, Delivery
                               Confirmation Receipt System and Enhanced Delivery
                               Confirmation Receipt System. This older equipment can
                               still be used for registry dispatch functions but the
                               equipment is incompatible with the Signature Capture
                               Program and no longer will be supported.

Implementation of              The implementation of the Signature Capture Program may
Signature Capture              be impacted by the use of old scanning equipment not
Program                        linked to the national database. During a recent visit to the
                               Los Angeles Processing and Distribution Center, we
                               observed caller service personnel using the Delivery
                               Confirmation Receipt System and Enhanced Delivery
                               Confirmation Receipt System for certified mail. In
                               discussions with the manager, Main Post Office, regarding
                               preparation for the upcoming tax season, we learned the
                               manager had requested additional Delivery Confirmation
                               Receipt System and Enhanced Delivery Confirmation
                               Receipt System equipment to be used for the processing of
                               certified mail. However, we confirmed with the manager,
                               Information Systems, Expedited/Packages Service, that the
                               old scanning equipment is not linked to the national
                               database and thus, the use of the old equipment will prevent
                               the facility from participating in the Signature Capture
                               Program during the upcoming tax season. The manager of
                               the Main Post Office in Los Angeles was not aware that the
                               Signature Capture Program and the older system



                                                 2
Certified Mail Observations at the Los Angeles                                     AC-MA-01-002
 Processing and Distribution Center


                               equipment were incompatible. We are concerned that
                               similar problems may exist at other locations. If the
                               Signature Capture Program is not uniformly implemented,
                               the processes to electronically collect, store, and retrieve
                               delivery records may be jeopardized.

Suggestion                     We suggest the vice president, Operations Planning and
                               Processing: Notify the appropriate individuals that using old
                               scanning equipment for certified mail precludes their
                               participation in the Signature Capture Program resulting in
                               no delivery record for the customer currently or during the
                               upcoming tax season.

Management’s                   Management agreed with our suggestion and stated they
Comments                       had made repeated efforts to communicate the proper
                               procedures for handling signature capture mail.
                               Management stated that they would reinforce proper
                               procedures with plant managers.

Evaluation of                  Management’s comments are responsive to our suggestion
Management’s                   and their actions taken or planned address the issue
Comments                       identified in this report.

                               We appreciated the cooperation and courtesies provided by
                               your staff during the survey. If you have any questions,
                               please contact Mike Magalski, acting director, at (703) 248-
                               2455, or me at (703) 248-2300.



                               Debra S. Ritt
                               Assistant Inspector General
                                for Business Operations

                               Attachment

                               cc: John R. Gunnels




                                                 3
Certified Mail Observations at the Los Angeles         AC-MA-01-002
 Processing and Distribution Center


                     APPENDIX. MANAGEMENT’S COMMENTS




                                                 4
Certified Mail Observations at the Los Angeles       AC-MA-01-002
 Processing and Distribution Center




                                                 5
